                                                                 Issue Date
                                                                          February 25, 2009
                                                                 Audit Report Number
                                                                              2009-DE-1002




TO:         Carol Ann Roman, Director, Denver Office of Public Housing, 8APH

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 8AGA


SUBJECT: The Housing Authority of the City of Brush, Colorado, Did Not Perform
           Contracting Activities in Accordance with Federal Procurement
           Requirements


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Brush, Colorado (Authority),
             because we received information indicating there were irregularities in the
             procurement process.

             Our audit objective was to determine whether the Authority performed
             contracting activities in accordance with federal procurement requirements.


 What We Found


             The Authority did not perform contracting activities in accordance with federal
             procurement requirements. It did not follow U.S. Department of Housing and
             Urban Development (HUD) requirements regarding price quotations, price
             analyses, written justification requirements, or contract modification
             determinations.
What We Recommend


           We recommend that the Denver Office of Public Housing require the Authority to
           properly train its staff regarding federal procurement requirements.

           HUD agreed to implement the recommendation and provided its management
           decision on February 25, 2009.

Auditee’s Response


           We provided the discussion draft of the audit report to the Authority on January
           22, 2009 and requested its comments by February 05, 2009. The Authority
           provided its written response on February 04, 2009 and agreed with the finding.
           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in the appendix of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                                            4

Results of Audit
      Finding: The Authority Completed Purchasing Actions in Violation of Federal   5
                  Procurement Requirements

Scope and Methodology                                                               7

Internal Controls                                                                   8

Appendix
       Auditee Comments and OIG’s Evaluation                                        9




                                            3
                      BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Brush, Colorado (Authority), was organized under the
“Housing Authorities Law” of the State of Colorado in 1971. The Authority has continually
entered into annual contributions contracts with the U.S. Department of Housing and Urban
Development (HUD) since May 30, 1980, to provide low-rent housing to qualified individuals.

The mission of the Authority is to serve the immediate needs of the disabled, elderly, and low-
income families in Brush, Colorado. The Authority achieves its mission by providing decent,
safe, and sanitary housing for all eligible participants and promoting better living conditions
throughout the community.

As of November 1, 2008, the Authority administered 30 public housing units. The Colorado
Division of Housing administers its Section 8 Housing Choice Voucher program. According to
its 2006 and 2007 audited financial statements, HUD awarded the Authority more than $28,000
and $40,000, respectively, for its public housing program. In addition, HUD awarded more than
$168,000 and $170,000, respectively, during these years for its Section 8 Housing Choice
Voucher program.

HUD has categorized the Authority as being in a substandard financial status since 2006. The
Authority is in this status because it has not been getting its audited financial statements in on
time, not because it is unable to financially manage its operations. The Authority recognized the
problem was with its Independent Public Accountant not understanding the Real Estate
Assessment Center and HUD financial reporting requirements and is taking steps to correct the
situation.

The objective of our audit was to determine whether the Authority performed contracting
activities in accordance with federal procurement requirements.




                                                4
                                 RESULTS OF AUDIT

Finding: The Authority Completed Purchasing Actions in Violation of
          Federal Procurement Requirements
The Authority did not perform contracting activities in accordance with federal procurement
requirements. This condition occurred because the Authority did not adequately train its staff.
As a result, it had no assurance that it received the best price for the services and products
provided.



 The Authority Violated Federal
 Procurement Requirements



               The Authority violated 24 CFR [Code of Federal Regulations] Part 85 by not
               maintaining records sufficient to detail the history of its procurements. It did not
               obtain quotes for small purchases, nor did it perform price analyses associated
               with those purchases. In addition, there were 60 purchases completed without
               invoices to support the procurement activity.

               The Authority also did not justify in writing why it was appropriate to award the
               maintenance contract to the current vendor when it was more than $43,000 higher
               in price than the lowest bid. The Authority did not properly use the bidding
               process in awarding the maintenance contract, and it did not follow all required
               contract provisions. It also violated the “use of options” provision in HUD
               Handbook 7460.8, REV-2, by automatically renewing its elevator emergency
               telephone monitoring agreement since September 1, 2002. In addition, it did not
               perform a price analysis when the agreement was modified in November 2003 or
               complete a determination that the modification was more advantageous than
               conducting a new procurement process.


  The Authority Did Not
  Adequately Train Its Staff



               The executive director performed the majority of the procurement activities. He
               had only received one day of procurement training since becoming executive
               director on March 1, 2005. He informed us that he was unaware of his
               responsibilities to follow HUD requirements regarding price quotations, the price



                                                 5
           analysis requirement, the requirement to provide written justification for not
           awarding the maintenance contract to the lowest bidder, or the requirement to
           complete an advantageous determination on the modification to the elevator
           emergency telephone monitoring agreement.
The Authority Could Not Be
Assured That It Received the
Best Price

           The Authority had no assurance that it received the best price for the services and
           products provided. Price quotations are necessary for the Authority to perform a
           price analysis. The price analyses ensure that the proposed prices are reasonable
           for the services and products provided.

           The Authority needs to adequately train its staff to ensure that it receives the best
           price for goods and services. Therefore, HUD should require the Authority to
           provide procurement training to its staff and then follow up to ensure that staff
           follow procurement requirements.

Recommendations



           We recommend that the Director of the Denver Office of Public Housing
                  1A. Require the Authority to train its staff regarding HUD procurement
                      procedures.
                  1B. Perform a post monitoring review of the Authority’s procurement
                      function to ensure that management took actions necessary to train
                      its staff and that the Authority complies with federal procurement
                      requirements.




                                             6
                         SCOPE AND METHODOLOGY

Our review period covered September 1, 2006, through August 31, 2008. We reviewed HUD and
Authority criteria and contracts, met with HUD and Authority staff, and looked at HUD and
Authority files.

To accomplish our audit objectives, we obtained and became familiar with the Authority’s
procurement policy; HUD Handbook 7460.8, REV-2; applicable regulations; and applicable
sections of the annual contributions contract between HUD and the Authority.

We selected for review all small purchases that required purchase quotes based on dollar
thresholds specified in the Authority’s procurement policy and that did not directly relate to
ordinary business expenses. There were 106 small purchases under $500 and 11 small purchases
over $500. The selected sample was not intended to be representative of the universe of vendors.
We also selected the only maintenance contract for review.

To determine whether the Authority performed contracting activities in accordance with federal
procurement requirements, we examined documentation in the maintenance contract files and the
emergency elevator telephone monitoring agreement. We then applied applicable federal
procurement requirements and the Authority’s procurement policy in our review of those
documents. We also examined general ledger entries related to maintenance activities and
reviewed Authority board of commissioner’s minutes applicable to the maintenance contract.

To determine whether the Authority used its operating fund for allowable costs, we examined
general ledger entries using Office of Management and Budget Circular A-87 guidance related to
selected items.

To determine whether the Authority had adequate inventory records and an inventory control
system, we examined property records and its most recent physical inventory of assets.

During the audit, we identified a minor issue regarding inventory control and use of the operating
fund, which we communicated to HUD in a separate management letter.

We performed our on-site audit work during October 2008 at the Authority’s offices at 612 Ray
Street, Brush, Colorado.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                7
                              INTERNAL CONTROLS


Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined that the following internal controls were relevant to our audit
              objectives:

              •   The Authority’s policies and procedures for procurement activities.
              •   The Authority’s policies and procedures related to using its operating fund for
                  allowable costs.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe that the following items are significant weaknesses:

              •       Management lacked controls to ensure that it properly implemented its
                      written procurement procedures (finding).




                                                8
Appendix

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation          Auditee Comments


Comment 1     Maintenance contract that was awarded in 2005 used a scoring system that
              apparently did not follow HUD guidelines. The total dollar amount of the
              contract pertained to several of the projects owned and managed by Bush
              Housing Authority of which the 30 unit Public Housing project is part. New
              bids for the maintenance service will be issued in October of 2009. HUD will
              approve the bid scoring system. Another option that to be considered will be
              to bid a separate contract for each project.

              A waiver of bids for the elevator contract will be obtained since there are no
              other elevator maintenance companies in this area.

              The outdated procurement policy for Brush Housing Authority has been
              updated, and approved by the board. Management has obtained an excellent
              training guide for the procurement process.

              Executive Director has been in contact with the local HUD office to arrange a
              more in depth training session for all office employees.

              Executive Director has contacted a procurement professional with NAHRO to
              help with questions concerning bid proposals.




                                              9
                           OIG Evaluation of Auditee Comments

The Authority's written response along with its verbal response at the exit conference indicates
agreement with the finding and recommendations.

Comment 1             Planned actions on the part of the Authority should resolve identified
                      issues.




                                                10
